Ill                                                                                                                             d


                                                      NATIONAL SCIENCE FOUNDATION
                                                                                                         1
                                                       OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS                         /I



                                                CLOSEOUT MEMORANDUM                                      '!

                                                                                                         I

      Case Number: I02050016                                                                      Page 1 of 1
                                                                                                         I/




            A university' requested that the National Science Foundation @SF) review the inclusion of
            Research Management Services (RMS) costs in award proposals. NSF's Cost Analysis and
            Audit Resolution Branch told the University it would consider funding RMS operations for
            future awards when the University received approval fiom their cognizant agencp.
                                    -   --
            The University's cognizant agency rejected the University's methodology for direct charging of
            RMS services and advised the University to discontinue the inclusion of RMS support in federal
            project budgets. The University responded to the cognizant agency and agreed to no longer
            include RMS recharges in federal project proposals.
                                                                                                              11
            In response to the questions raised regarding RMS charges, the NSF Office of Inspector
            General's Office of Audits (OIGIAUD) conducted an audit of the University's RMS charges and
                                                                                                              ,
            found that despite the cognizant agency's determination, the University had continued to charge
            RMS costs to NSF awards. The University inappropriately charged approximately $1.5 million
            in RMS and related Facilities and Administrative (F&A) costs. Consistent with the cogni&t
            agency's determination, OIGIAUD concluded that RMS recharges were not in compliance , y t h
            OMB Circular A-2 1.
                                                                                                                   I
            In response to the OIGIAUD audit, the University agreed to repay $247,991 of the questioned
            costs. This amount represented RMS costs charged to NSF awards approved after the date the
            University responded to the cognizant agency's decision. However, the University considers the
            remaining $1.2 million allowable because RMS charges were included in NSF approved a4ard
            budgets before the cognizant agency's decision date.                                    11


            OIG investigators reviewed all of the University's documents pertaining to this matter and did
            not find any indication of criminal intent or any information which would rise to the level of/I civil
            culpability on the part of the University or its staff to defiaud the U.S. government.

            In light of the above, OIG Investigations referred this matter back to OIGIAUD.
                                                                                                                       I


            Accordingly, this case is closed.
                                                                                                                       15




                                Agent                   Attorney                Supervisor                             bi1~1
                                                                                                                            I

        Sign / date
